U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 24, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Comcast Corp., et al. v. International Trade Commission, et al,
S.Ct.No. 19-1173

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 25,
2020, and placed on the docket on March 27, 2020. The government's response is due on April
27, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 26, 2020, within which to file the response for all respondents.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1173
COMCAST CORP., ET AL.
USA, ET AL.

ANDREW KIM
GOODWIN PROCTER LLP
1900 N STREET, NW
WASHINGTON, DC 20036
202-346-4165
ANDREWKIM@GOODWINLAW.COM
JOSHUA LANDAU
COMPUTER & COMMUNICATIONS INDUSTRY
ASSOCIATION
25 MASSACHUSETTS AVENUE, NW
SUITE 300C
WASHINGTON, DC 20001-1430
202-783-0070
JLANDAU@CCIANET.ORG
DONALD B. VERRILLI JR.
MUNGER, TOLLES & OLSON LLP
1155 F STREEETNW
7TH FLOOR
WASHINGTON, DC 20004
202-220-1101
DONALD .VERRILLI@MTO .COM

